        AIR FORCE FY 2000 FINANCIAL REPORTING OF
           OPERATING MATERIALS AND SUPPLIES


Report No. D-2001-156                      July 5, 2001



             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
AFEMS                 Air Force Equipment Management System
DFAS                  Defense Finance and Accounting Service
ERRC                  Expendability, Recoverability, Repairability, Category
FIABS                 Financial Inventory Accounting and Billing System
GAAP                  Generally Accepted Accounting Principles
OMB                   Office of Management and Budget
OM&S                  Operating Materials and Supplies
PP&E                  Property, Plant, and Equipment
SBSS                  Standard Base Supply System
SFFAS                 Statement of Federal Financial Accounting Standards
                       Office of the Inspector General, DoD
Report No. D-2001-156                                                       July 5, 2001
  (Project No. D2001FJ-0002)




                    Air Force FY 2000 Financial Reporting
                     of Operating Materials and Supplies

                                Executive Summary

Introduction. We performed this audit in support of the Chief Financial Officers Act
of 1990, as amended by the Federal Financial Management Act of 1994. DoD defines
operating materials and supplies as tangible personal property that is to be consumed in
normal operations. The Air Force operating materials and supplies include two broad
categories, investment inventory items and conventional munitions. The Air Force
defines an investment inventory item as any article financed by central procurement
appropriations. Investment assets include selected aircraft and missile spare parts, time
change and depot-directed modification kits, fuel tanks, racks, adapters, pylons, and
spare parts for Government-furnished support packages. In general, munitions assets
consist of any item containing explosives, excluding self-propelled and guided missiles
that are classified as stewardship assets. The Air Force reported $19.6 billion for
operating materials and supplies on their FY 2000 financial statements. The $19.6
billion consisted of $12 billion (61 percent) of investment inventory items, and $7.6
billion (39 percent) of munitions assets.

Objectives. The overall audit objective was to obtain information on the financial
reporting of operating materials and supplies and to determine the appropriateness of
policies and regulations governing accounting for operating materials and supplies. We
focused this part of the audit on the FY 2000 Air Force financial statement disclosure
of operating materials and supplies. As part of the audit, we were to assess the internal
control structure. We did not assess the internal control structure because the
Air Force reported in its prior and FY 2000 financial statements that it lacked the
systems and procedures to adequately report operating materials and supplies.

Results. The Air Force reported but qualified the appropriateness of $19.6 billion of
operating materials and supplies on the FY 2000 General Fund financial statements.
The Air Force stated that it was unable to implement all elements of the Statement of
Federal Financial Accounting Standards because of limitations of its financial
management processes and systems, including nonfinancial feeder systems.

In addition to the systems problems, the Air Force General Fund financial statements
contained inaccurate and improper disclosures of about $1.75 billion in operating
materials and supplies. Specifically:
        • about $1.35 billion of munitions assets in the Combat Ammunition System
          were not properly disclosed in the footnotes;

        • $30.5 million of munitions coded assets in the Standard Base Supply System
          were not disclosed as munitions in the footnotes;

        • $351 million of war reserve property, plant, and equipment assets were not
          eliminated from the reported balance; and

        • $14.6 million of assets coded as property, plant, and equipment were
          included in the reported operating materials and supplies balance.

For $1.38 billion of the munitions assets, accurate footnote disclosures are needed.
The remaining $365.6 million resulted in an overstatement of the operating material and
supplies balance. As a result of the systems problems and the inaccurate disclosures,
the Air Force General Fund financial statement reporting of operating materials and
supplies could not be relied upon. For details of the audit results, see the Finding
section of the report.

Summary of Recommendations. We recommend that the Air Force Deputy Chief of
Staff (Installations and Logistics) develop procedures to ensure that required data on
Air Force munitions assets maintained in the Air Force Combat Ammunition System
and also in the Standard Base Supply System are provided to the servicing finance
office for appropriate disclosure in the footnotes to operating materials and supplies
balances. We also recommend that the Deputy Chief of Staff correct inconsistencies in
the Air Force regulations related to maintaining balances for munitions assets and
implement procedures to ensure that all property, plant, and equipment coded assets in
the Standard Base Supply System are not reported as operating materials and supplies.

Management Comments. We provided a draft of this report on March 23, 2001. The
Air Force did not respond to the draft report. Therefore, we request the Air Force
provide comments by August 6, 2001.




                                          ii
Table of Contents

Executive Summary                                                         i

Introduction
     Background                                                           1
     Objectives                                                           2

Finding
     Air Force Financial Reporting of Operating Materials and Supplies   4


Appendixes
     A. Audit Process
         Scope and Methodology                                           11
     B. Prior Coverage                                                   13
     C. Expendability, Recoverability, Reparability, Category Codes      14
     D. Report Distribution                                              15
Background
    Introduction. The audit was performed in support of Public Law 101-576, the
    “Chief Financial Officers Act of 1990,” November 15, 1990, as amended by
    Public Law 103-356, the “Federal Financial Management Act of 1994,”
    October 13, 1994.

    The Air Force General Fund accounting system records and reports only one
    category of inventory and related property, Operating Materials and Supplies
    (OM&S). DoD defines OM&S as tangible personal property that is to be
    consumed in normal operations. The Air Force reported OM&S valued at
    $19.6 billion in its FY 2000 financial statements.

    The following table shows the categories of OM&S reported in the FY 2000 Air
    Force General Fund financial statements.




                  Categories of OM&S Reported by the Air Force

                                 (dollars in thousands)

           Category                                                  Value

           Held for use                                       $ 17,856,490

           Held in reserve for future use                         1,689,471

           Excess, obsolete, and unserviceable                       44,267

             Total                                            $ 19,590,228




    The Air Force includes investment inventory items and conventional munitions
    in OM&S. Total investment inventory items accounted for in the FY 2000 Air
    Force General Fund financial statements were $12 billion (61 percent) of the
    total OM&S reported. The remaining $7.6 billion (39 percent) were considered
    conventional munitions.

    The Air Force defines an investment inventory item as any article financed by
    central procurement appropriations. Investment inventory items included in
    OM&S are identified by alpha budget codes in the Air Force supply systems.
    These items are normally free issued at base level and maintained in two Air
    Force systems, the Standard Base Supply System (SBSS) and Financial
    Inventory Accounting and Billing System (FIABS).
                                        1
     Investment assets include selected aircraft and missile spare parts; time change
     and depot-directed modification kits; fuel tanks, racks, adapters, and pylons;
     and spare parts for Government-furnished support packages. In general,
     conventional munitions consist of any item containing explosives, excluding
     self-propelled and guided missiles that are classified as stewardship assets.

     The Air Force SBSS accounts for supplies, equipment, petroleum, oils and
     lubricants, munitions, and clothing at Air Force base level. The dollar value of
     items in SBSS is obtained from the Investment Inventory Reconciliation report
     (Q06). This reconciliation report is run monthly for all SBSS items at each Air
     Force base and Air Logistics Center and provided to seven Defense Finance and
     Accounting Service (DFAS) activities. These seven DFAS activities prepare
     journal voucher adjustments to the general ledger accounts 1511 (OM&S Held
     for Use) and 1512 (OM&S Held for Future Use) which are transmitted to DFAS
     Denver. DFAS Denver is the primary Air Force financial servicing office and
     prepares the initial General Fund financial statements for Air Force review.
     SBSS data that were included in the reconciliation reporting process contained
     both OM&S and property, plant, and equipment (PP&E) coded items.

     DFAS Denver uses data from two Air Force systems and one Army system for
     financial reporting of Air Force munitions. The Air Force systems are the
     Combat Ammunition System and the FIABS. The Army provides information
     on Air Force munitions stored at Army depots through its Standard Depot
     System.

     According to DoD Regulation 7000.14-R, the “DoD Financial Management
     Regulation,” volume 6B, “Form and Content of the Department of Defense
     Audited Financial Statements,” chapter 4, “Balance Sheet,” updated October
     2000, munitions are classified in three categories.

             •   Munitions in stock to satisfy training needs are considered to be held
                 for current use,
             •   Munitions held to satisfy operational or military contingency needs
                 are considered to be held for future use, and

             •   Any additional quantity is considered to be excess.

     Material portions of the amount reported should be disclosed in note 9.B,
     “Operating Materials and Supplies (OM&S), Net.” Material is defined as any
     component of OM&S that represents more than 10 percent of the value of
     OM&S.

Objectives
     The overall audit objective was to obtain information on the financial reporting
     of OM&S and to determine the appropriateness of policies and regulations
     governing accounting for OM&S. We focused this part of the audit on the
     FY 2000 Air Force financial statement disclosure of OM&S. Reports on Army

                                          2
and Navy reporting of OM&S were issued during Calendar Year 2000. As part
of the audit, we were to assess the internal control structure. We did not assess
the internal control structure because the Air Force reported in FY 2000 and its
prior financial statements that it lacked the systems and procedures to adequately
report OM&S. See Appendix A for a discussion of the audit scope and
methodology.




                                    3
            Air Force Financial Reporting of
            Operating Materials and Supplies
            The Air Force reported but qualified the appropriateness of the
            $19.6 billion of OM&S on the FY 2000 General Fund financial
            statements. The Air Force stated that it was unable to implement all
            elements of the Statement of Federal Financial Accounting Standards
            (SFFAS) because of limitations of its financial management processes
            and systems, including nonfinancial feeder systems.

            In addition to the systems problems, the Air Force General Fund
            financial statements contained inaccurate disclosures of about
            $1.75 billion in OM&S. Specifically:

                   •   about $1.35 billion of munitions in the Combat Ammunition
                       System assets were not properly disclosed in the footnotes;

                   •   $30.5 million of munitions coded assets in the Standard Base
                       Supply System were not disclosed as munitions in the
                       footnotes;

                   •   $351 million of war reserve PP&E assets were not eliminated
                        from the reported balances;

                   •   $14.6 million of assets coded as PP&E were included in the
                        reported OM&S balances.

            For $1.38 billion of the munitions assets, accurate footnote disclosures
            are needed. The remaining $365.6 million resulted in an overstatement
            of the OM&S line. The inaccurate financial statement disclosures were
            attributed to the lack of effective Air Force procedures to ensure
            required data on munitions assets are provided to its servicing finance
            office and to ensure PP&E assets are not included in OM&S balances.
            As a result of the systems problems and the inaccurate disclosures, the
            Air Force General Fund financial statement reporting of OM&S could
            not be relied upon.

Financial Reporting Policy
     In SFFAS No. 3, “Accounting for Inventory and Related Property,”
     October 27, 1993, the Federal Accounting Standards Advisory Board issued
     accounting principles for OM&S. OM&S are reported as an asset on the
     balance sheet and were defined as tangible personal property to be consumed in
     normal operations.




                                        4
Also, the standard excludes certain asset types from being reported as OM&S:

       •   goods that have been acquired for use in constructing real property or
           in assembling equipment for the entity to use,

       •   stockpile materials,

       •   goods held under price stabilization programs,

       •   foreclosed property,

       •   seized and forfeited property, and

       •   inventory.
The standard requires OM&S to be categorized as the following:

       •   OM&S held for use;

       •   OM&S held in reserve for future use; and

       •   OM&S excess, obsolete, and unserviceable.

For OM&S, the consumption method of accounting is used for the recognition
of expenses. The consumption method is a process for recognizing and
expense, in the sense that the eventual use (consumption) results in the
recognition in the expenditure account. Under the consumption method, the
acquisition of OM&S is viewed as the conversion of resources (from cash to
OM&S), not the use of resources. Therefore, the entity still has resources to
use. Another method for recognizing OM&S is the purchase method. Under
the purchase method, the acquisition of OM&S is considered to be the use of
resources; therefore, the entity has used up its resources, that is, expended
them.

Also, the standard requires OM&S to be valued on the basis of historical cost.
The cost that is recognized when consumed (under the consumption method)
would be the past cost of the OM&S item. The first-in/first-out, weighted
average or moving average cost flow assumptions, were the preferred methods
for arriving at the historical cost. However, other reasonable valuation methods
could be used if the results reasonably approximated the historical cost methods
(for example, a standard cost or latest acquisition cost system).

DoD Policy on OM&S. DoD Regulation 7000.14-R, the “DoD Financial
Management Regulation,” volume 4, “Accounting Policy and Procedures,”
chapter 4, “Operating Materials and Supplies and Stockpile Materials,” updated
January 2001, was published to implement the requirements of SFFAS No. 3
for DoD.




                                    5
Air Force Financial Statement Disclosures
     Even though the Air Force reported $19.6 billion under OM&S in its FY 2000
     financial statements, the data contained material financial reporting limitations.
     In Footnote 1.A, “Significant Accounting Policies: Basis of Presentation,” the
     Air Force reported that it:
                  is unable to fully implement all elements of Generally Accepted
                  Accounting Principles (GAAP) and the Office of Management and
                  Budget (OMB) Bulletin No. 97-01 due to limitations of its financial
                  management processes and systems, including nonfinancial feeder
                  systems and processes. Reported values and information from the Air
                  Force’s major asset and liability categories are derived largely from
                  nonfinancial feeder systems, such as inventory systems and logistics
                  systems. These were designed to support reporting requirements
                  focusing on maintaining accountability over assets and reporting the
                  status of federal appropriations rather than applying the current
                  emphasis of business-like financial statements. As a result, the Air
                  Force cannot currently implement every aspect of GAAP and the
                  OMB Bulletin No. 97-01. The Air Force continues to implement
                  process and system improvements addressing the limitations of its
                  financial and nonfinancial feeder systems.

     Additionally, under Footnote 9.B, “Operating Materials and Supplies (OM&S),
     Net,” the Air Force stated the following:
                  OM&S data, as reported on the financial statements, are derived from
                  logistics systems designed for material management purposes. These
                  systems do not maintain the historical cost data necessary to comply
                  with the valuation requirements of SFFAS No. 3, “Accounting for
                  Inventory and Related Property.” In addition, while these logistics
                  systems provide management information on the accountability and
                  visibility over OM&S items, the timeliness at which this information
                  is provided creates issues regarding the completeness and existence of
                  the OM&S quantities used to derive the values reported in the
                  financial statements.


Additional Disclosures Needed
     In addition to the systems problems, the Air Force General Fund financial
     statements contained inadequate disclosures of about $1.75 billion in OM&S.
     Specifically:

              •     about $1.35 billion of munitions in the Combat Ammunition
                   System assets were not properly disclosed in the footnotes;

              •     $30.5 million of munitions coded assets in the Standard Base
                   Supply System were not disclosed as munitions in the footnotes;


                                               6
                •     $351 million of war reserve PP&E assets were not eliminated from
                       the reported balances;

                •     $14.6 million of assets coded as PP&E were included in the
                       reported OM&S balances.

Disclosure of Air Force Munitions Assets
     About $1.35 billion of munitions in the Combat Ammunition System assets were
     not properly disclosed in the footnotes.

     War Reserve Munitions Footnote Disclosure. In footnote 9.B, “Operating
     Materials and Supplies (OM&S), Net,” to the FY 2000 Air Force General Fund
     financial statements, the Air Force stated the following:
                    OM&S reported for FY 2000 includes $7.6 billion in munitions. Of
                    that amount, $7.3 billion is included as held for use, $304 million as
                    held for future use, and $2.2 billion was reduced to net realizable
                    value of $40 million as excess, obsolete and unserviceable.

     However, supporting documentation for this footnote disclosure contained a
     material inaccuracy. The supporting documentation did not reflect about
     $1.35 billion of war reserve munitions.

     DoD Regulation 7000.14-R, the “DoD Financial Management Regulation,”
     volume 6B, “Form and Content of the Department of Defense Audited Financial
     Statements,” chapter 4, “Balance Sheet,” dated October 2000, provides
     guidance on OM&S. It requires that:

            •       munitions in stock to satisfy training needs are considered to be held
                    for current use,

            •       munitions held to satisfy operational or military contingency needs
                    are considered to be held for future use, and

            •       any additional quantities are considered to be excess.

     Volume 6B, chapter 6B, “Notes to the Financial Statements,” December 2000,
     provides detailed guidance on how the notes to the financial statements are
     derived. Line 1.B. of the notes states that, “OM&S Held in Reserve for Future
     Use,” consists of stocks maintained because they are not readily available in the
     market or because there is more than a remote chance they eventually will be
     needed. It further states that these assets should be considered war reserve
     requirements.

     Information on the munitions balance was primarily derived from data provided
     to DFAS Denver from the Air Force Combat Ammunition System. Those data
     did not reflect munitions held for war reserve requirements. Prior year financial
     statements showed that the Air Force generally reflected about $1.35 billion of
     war reserve munitions held for future use. The amount of war reserve assets in
                                                 7
the Combat Ammunition System should have been disclosed in the financial
statements as held for future use.

On Hand Munitions Footnote Disclosure. In addition to the above
understatement of munitions held for future use, the SBSS data for November
2000 showed that $30.5 million of munitions coded items were shown as on
hand in SBSS, but those assets were not reflected as munitions in the footnote.
We determined that the assets were not included in the footnotes because of
confusion concerning the overall definition of which assets should be considered
munitions assets. In addition, there was conflicting guidance between two
separate Air Force regulations. Air Force Instruction 21-201, “Management
and Maintenance of Non-Nuclear Munitions,” December 1, 2000, required
monthly reviews of SBSS to ensure that munitions assets were not maintained on
base supply records. However, Air Force Manual 23-110, “U.S. Air Force
Supply Manual,” July 1, 2000, states that the SBSS provides base activities with
their supply needs and accounts for supplies, equipment, petroleum, oils and
lubricants, munitions, and clothing. The Air Force needs to determine whether
munitions should be maintained in SBSS and if so, ensure that the data on
munitions assets in SBSS were provided to its servicing finance office so that the
assets are properly reflected in financial statement disclosures.

War Reserve Property Plant and Equipment. During FY 2000, the Air
Force and its servicing DFAS Denver office adjusted OM&S balances to
remove $172 million of PP&E assets recorded in SBSS and shown as OM&S
on the financial statements. However, additional adjustments were needed.
About $351 million of war reserve PP&E assets were not eliminated from the
reported balances.

Coding of SBSS Items. Items in SBSS are classified as either OM&S or PP&E
based on the item’s assigned alphanumeric code. This alphanumeric code is
defined as an Expendability, Recoverability, Repairability, Category (ERRC)
designator. The Air Force use of ERRC designators provides for categorization
of its assets into various management groupings. These groupings determine the
type of management used throughout the logistics cycle, designate the
methodology to be employed in computing requirements, and are used in the
accumulation and reporting of asset and usage data. According to Air Force
Manual 23-110, Volume 1, Part Four, it is extremely important that the ERRC
designators be correctly assigned, since they are the key element in determining
whether an item will be managed as an expense cost or an investment cost item.

The ERRC designator begins with either an “X” or an “N.” An item beginning
with an ERRC designator of “X” is considered an expendable item that is either
consumed in use or will become a part of a higher assembly during its period of
use. These types of items should be classified as OM&S for financial reporting
purposes. Items having an ERRC designator that begins with an “N” are
considered nonexpendable, that is, they are neither consumed in use nor do they
lose their identity by installation on a higher assembly during their periods of
use. An item that has an ERRC designator that begins with an “N” should be
considered PP&E for financial reporting purposes and either expensed or
capitalized depending on its value. See Appendix C for a listing and description
of the ERRC designators.
                                    8
    Adjustments Made. In an attempt to eliminate duplicate reporting of assets in
    SBSS as both PP&E and OM&S, the OM&S balance shown in SBSS was
    reduced by $172 million. Because the Air Force was not able to provide DFAS
    Denver with an accurate SBSS database at year’s end that identified all “N”
    coded assets, DFAS Denver developed an alternative method to identify PP&E
    assets in the SBSS. The alternative method entailed the use of the Air Force
    Equipment Management System (AFEMS). Because AFEMS interfaced with
    SBSS, it should have reflected all PP&E carried in SBSS. Air Force and DFAS
    Denver personnel believed that reducing the OM&S balance by the $172 million
    adjustment would result in more accurate reporting of OM&S.

    Additional Adjustments Needed. The $172 million adjustment made to the
    OM&S balances carried in SBSS did not result in the elimination of all PP&E
    assets. Our review of the AFEMS data provided to DFAS Denver disclosed
    that $172 million of PP&E assets were held for current use, and an additional
    $351 million of PP&E assets were held as war reserve materials. However,
    DFAS Denver personnel did not appropriately reduce the reported OM&S
    balance by the $351 million. DFAS Denver personnel acknowledged that they
    made an error in not adjusting the OM&S balance by the $351 million of war
    reserve PP&E. They believed it was simply an oversight in the manual
    processing of the FY 2000 statements. The error caused the OM&S balance on
    the FY 2000 Air Force financial statements to be overstated by $351 million.
    DFAS Denver and Air Force personnel stated that this condition would be
    corrected when a systems change planned to correct the reconciliation reporting
    for the SBSS is completed. The estimated completion date was June 1, 2001.
    We are not making a recommendation on this issue because of the planned
    corrective action by the Air Force.

    In addition to not adjusting for the war reserve materials, the AFEMS data only
    included information on 4 of the 10 possible “N” coded items. Specifically, the
    AFEMS data showed values for only ERRC designators ND4 and 5, and NF4
    and 5. When we asked DFAS Denver why their adjustment was based only on
    those “N” coded assets, they stated that those items were selected because they
    were valued over $100,000. PP&E assets valued over $100,00 are capitalized
    and reported on the Air Force balance sheet as PP&E. DFAS Denver took this
    action to ensure that the same assets would not be included on the financial
    statement as both OM&S and PP&E. However, SBSS data provided to us by
    the Air Force during November 2000 showed that there was a substantial
    number (961 items valued at $14.6 million) of “N” coded assets with a 1, 2, or
    3 numeric designator. Although $14.6 million of PP&E reported as OM&S is
    not material to the financial statements, these assets need to be properly
    accounted for and reflected correctly on the Air Force financial statements.

Conclusion
    The information about Air Force OM&S reported in the Air Force FY 2000
    General Fund financial statements was not reliable. The Air Force General
    Fund financial statements contained inaccurate disclosures of about $1.75 billion
    in OM&S. The Air Force needs to develop a consistent process to provide data

                                        9
       to DFAS Denver for accurate disclosure and presentation in the financial
       statements for munitions assets maintained in both the Combat Ammunition
       System and SBSS. In addition, the Air Force needs to develop effective
       procedures to ensure that PP&E assets in the SBSS database were not reported
       on its financial statements as OM&S. The inadequate reporting of the PP&E
       caused the OM&S line item on the Air Force FY 2000 General Fund financial
       statements to be overstated by $365.6 million.

Recommendations
       We recommend that the Air Force Deputy Chief of Staff (Installations and
       Logistics):

                   1. Develop procedures to ensure that required data on Air Force
       munitions assets maintained in the Air Force Combat Ammunition System and
       also in the Standard Base Supply System are provided to the servicing finance
       office for appropriate disclosure in the footnotes to operating materials and
       supplies balances.

                   2. Correct the inconsistencies between the two Air Force regulations
       as they relate to whether munitions assets will or will not be maintained in the
       Standard Base Supply system.

                  3. Implement procedures to ensure that all property, plant, and
       equipment coded assets in the Standard Base Supply System are not reported as
       operating materials and supplies.

Management Comments Required

The Air Force did not comment on a draft of this report. We request that the Air force
provide comments on the final report.




                                          10
Appendix A. Audit Process

Scope and Methodology
    We concentrated our audit effort on the Air Force General Fund financial
    reporting of $19.6 billion of OM&S. This included a review of all relevant
    supporting documentation used in the preparation of the FY 2000 Air Force
    General Fund financial statements at its servicing DFAS Denver office. We
    also reviewed related information in reports produced by the Air Force from
    financial and logistics systems. The work included examining data from the Air
    Force SBSS and AFEM systems. Additionally, we made inquiries of Air Force
    comptroller and logistics staff and DFAS Denver personnel to determine the
    processes and policies that were used to report OM&S.

    Audit Type, Dates, and Standards. This financial-related audit of the
    Air Force reported $19.6 billion of OM&S was conducted from September 2000
    through January 2001 in accordance with auditing standards issued by the
    Comptroller General of the United States, as implemented by the Inspector
    General, DoD. We did our work in accordance with generally accepted
    Government auditing standards except that we were unable to obtain an opinion
    on our system of quality control. The most recent external quality control
    review was withdrawn on March 15, 2001, and we will undergo a new review.

    Use of Computer-Processed Data. We relied on computer-processed data
    from the Air Force SBSS and AFEMS systems to determine the amounts and
    values of assets (that is, munitions and PP&E assets). Although we did not
    perform a formal reliability assessment of the computer-processed data, we did
    not find errors that would preclude use of the computer-processed data to meet
    the audit objectives or that would change the conclusions of the audit.

    Contacts During the Audit. We visited or contacted individuals or
    organizations within DoD and the Air Force. Further details are available on
    request.

    DoD-Wide Corporate-Level Government Performance and Results Act
    Goals. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate-level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following goal, subordinate performance goal, and
    performance measures:

           • FY 2001 DoD Corporate-Level Goal 2: Prepare now for an
             uncertain future by pursuing a focused modernization effort that
             maintains U.S. qualitative superiority by exploiting the Revolution in
             Military Affairs, and reengineer the Department to achieve a 21st
             century infrastructure.


                                       11
       • FY 2001 Subordinate Performance Goal 2.5: Improve DoD
         financial and information management. (01-DoD-2.5)

       • FY 2001 Subordinate Performance Measure 2.5.1: Reduce the
         number of noncompliant accounting and finance systems. (01-DoD-
         2.5.1.)

       • FY 2001 Performance Measure 2.5.2: Achieve unqualified opinions
         on financial statements. (01-DoD-2.5.2)

DoD Functional Area Reform Goals. Most major DoD functional areas have
also established performance improvement reform objectives and goals. This
report pertains to achievement of the following functional area objective and
goal:
       • Financial Management Functional Area. Objective: Strengthen
         internal controls. Goal: Improve compliance with the Federal
         Managers’ Financial Integrity Act. (FM-5.3)

General Accounting Office High-Risk Area. The General Accounting Office
has identified several high-risk areas in the DoD. This report provides coverage
of the financial management high-risk area.

Management Control Program. We did not assess the internal control
structure because the Air Force reported in its prior year financial statements
that it lacked the systems and procedures to adequately report operating
materials and supplies.




                                    12
Appendix B. Prior Coverage

Air Force Audit Agency
    Air Force Audit Agency Report No. 99053003, Inventory and Related Property,
    Fiscal Year 1999,” September 20, 2000

    Air Force Audit Agency Report No. 98053003, “Inventory and Related
    Property, Fiscal Year 1998,” May 14, 1999

    Air Force Audit Agency Report No. 97053003, “Inventory and Related
    Property, Fiscal Year 1997, Air Force Consolidated Financial Statements,”
    August 20, 1998

    Air Force Audit Agency Report No. 96053005, “Operating Materials and
    Supplies, Fiscal Year 1996, Air Force Consolidated Financial Statements,”
    May 30, 1997

    Air Force Audit Agency Report No. 96054009, “Combat Ammunition System,”
    January 17, 1997

    Air Force Audit Agency Report No. 95053005, “Operating Materials and
    Supplies, Fiscal Year 1995, Air Force Consolidated Financial Statements,”
    August 29, 1996




                                      13
Appendix C. Expendability, Recoverability,
            Repairability, Category Codes
         The following table shows ERRC designators.

    Position of ERRC   Code                                 Conditions
       Designator



First                  N        When the item retains its own identity when in use—that is, it is
                                not incorporated into, installed on, or attached to another
                                assembly AND the item is not consumed in use AND the unit
                                price is over $10. Nonexpendable Item.

First                  X        When the item loses its own identity in use or is installed in, or
                                is attached to, another assembly. Also applies when the item is
                                consumed in use. Expendable Item.

Second                 B        When the item is not subject to repair and is consumed in use.
                                Will always include but is not limited to items costing $10 or
                                less.

Second                 F        When the item is of such a composition that it is economical to
                                repair, but not economical to return to a specialized repair
                                activity for repair AND the capability exists within field/contract
                                maintenance to repair.

Second                 D        When the item is subject to repair, but beyond the scope of field
                                level maintenance, and should be returned to a depot or
                                specialized repair activity for repair.

Third                  1        When the first two positions are XD and the Air Force Logistics
                                Command Item Manager has determined that the item will be
                                managed under Serialized Control and Reporting System
                                procedures.

Third                  2        When the first two positions are XD, and the item is not
                                Category 1

Third                  3        When the first two positions are XF or XB.

Third                  4        Other centrally procured items.

Third                  5        Vehicles identified by registration or serial number.




                                              14
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)
  Deputy Comptroller (Program/Budget)
  Deputy Chief Financial Officer

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Deputy Chief of Staff (Installations and Logistics)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service
   Director, Defense Finance and Accounting Service, Denver Office

Non-Defense Federal Organizations and Individuals
Office of Management and Budget




                                          15
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
   Government Reform




                                         16
Audit Team Members
   The Finance and Accounting Directorate, Office of the Assistant Inspector
   General for Auditing, DoD, prepared this report. Personnel of the Office of the
   Inspector, DoD, who contributed to the report are listed below.

     F. Jay Lane
     Salvatore D. Guli
     James L. Kornides
     John K. Issel
     Clarence E. Knight III
     Jodi A. Huhn
     Lisa Rose-Pressley
     Karen M. Bennett
